<html>
<title> - FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: ENABLING A 21ST- CENTURY AVIATION SYSTEM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








   FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: ENABLING A 21ST-
                        CENTURY AVIATION SYSTEM

=======================================================================

                                (114-7)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-580 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              ANDRE CARSON, Indiana
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
REID J. RIBBLE, Wisconsin            DINA TITUS, Nevada
MARK MEADOWS, North Carolina         SEAN PATRICK MALONEY, New York
RODNEY DAVIS, Illinois               CHERI BUSTOS, Illinois
MARK SANFORD, South Carolina         JULIA BROWNLEY, California
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
RYAN A. COSTELLO, Pennsylvania       RICHARD M. NOLAN, Minnesota
MIMI WALTERS, California             JOHN GARAMENDI, California
BARBARA COMSTOCK, Virginia           PETER A. DeFAZIO, Oregon (Ex 
CARLOS CURBELO, Florida              Officio)
LEE M. ZELDIN, New York
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Hon. Michael P. Huerta, Administrator, Federal Aviation 
  Administration:

    Testimony....................................................     4
    Prepared statement...........................................    33
    Responses to questions for the record from the following 
      majority-side Representatives:

        Hon. Bill Shuster of Pennsylvania........................    43
        Hon. Don Young of Alaska.................................    44
        Hon. Rob Woodall of Georgia..............................    48
        Hon Mimi Walters of California...........................    49
    Responses to questions for the record from the following 
      minority-side Representatives and Delegate:

        Hon. Peter A. DeFazio of Oregon..........................    50
        Hon. Rick Larsen of Washington...........................    53
        Hon. Eleanor Holmes Norton of the District of Columbia...    55
        Hon. Daniel Lipinski of Illinois.........................    56
        Hon. Andre Carson of Indiana.............................    62

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Peter A. DeFazio of Oregon..................................    23
Hon. Rick Larsen of Washington...................................    27



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
   FEDERAL AVIATION ADMINISTRATION REAUTHORIZATION: ENABLING A 21ST-
                        CENTURY AVIATION SYSTEM

                              ----------                              


                         TUESDAY, MARCH 3, 2015

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:31 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The committee will come to 
order. Thank you all for being here, particularly Administrator 
Huerta for being here. And the Colgan family members, thank you 
for being here.
    On September 30th of this year the current Federal Aviation 
Administration reauthorization expires. This current 
authorization occurred after 5 years of short-term extensions 
and a partial shutdown, which resulted in tremendous 
instability and uncertainty for the agency, industry, 
stakeholders, and the flying public. Chairman Shuster and I 
have repeatedly talked about this and pledged to do our very 
best, along with Mr. DeFazio and Mr. Larsen, to see that this 
will not happen again.
    As we draft the new authorization, there are several key 
areas that must be addressed. Technological advances since the 
last bill are at the heart of two key areas of focus, the move 
towards GPS-based air traffic control under NextGen and the 
growth of commercial interest in unmanned aerial systems. These 
technologies hold enormous potential that could improve the 
efficiency and safety of our airspace system while unlocking 
billions of dollars in economic activity for the country.
    As Administrator Huerta will concur, NextGen utilizes many 
technologies that would not only increase capacity, but also 
improve the safety of our airspace. Many of these technologies 
were researched, developed, and tested at the FAA Technical 
Center, the premier research and development facility for the 
FAA, which is in my district.
    While progress has been made on establishing NextGen 
foundational programs, it is clear that the FAA has a great 
deal of work to do before passengers and operators begin to 
realize more significant benefits. For the past year, we have 
received an extensive amount of input from stakeholders 
regarding the slow place of FAA implementation of NextGen, as 
well as the agency's inefficient and overly burdensome 
certification processes, which we think is impacting in a 
negative way on the economics of the country.
    Many of these problems have been identified in several 
oversight hearings conducted by this subcommittee, as well as 
by the DOT inspector general and Government Accountability 
Office. In addition, we have raised them directly with 
Secretary Foxx and Administrator Huerta, and I would again 
convey that Congress as a whole is closely monitoring the FAA's 
progress on NextGen and the subcommittee will continue its 
vigorous oversight in light of recent reports from the DOT 
inspector general on cost overruns and delays.
    Furthermore, after months of delay, the FAA finally 
released its proposed rule on the integration of small unmanned 
aerial systems, or UAS, into the national airspace, but the 
estimate timeline of 2017 for finalization of the rule I think 
just seems too long. Other countries are moving ahead more 
quickly than us as we speak, and the American leadership simply 
cannot be taken for granted and/or allowed to slip.
    I urge the FAA to act both quickly and carefully to ensure 
the United States leads the world in safe UAS integration. 
Having the resources of the FAA Technical Center and the six 
UAS test sites at its disposal, I believe the agency can 
achieve this important goal, and Mr. Larsen and I stand with 
the committee ready to work with Administrator Huerta, with you 
on this and on other issues.
    As we move forward with the FAA Reauthorization Act, we 
must ensure that our efforts to address these longstanding 
problems do not adversely impact safety, which has and will 
continue to be a top priority of the committee. On that note, I 
would like to hear from the Administrator on the FAA's efforts 
to implement one of the last outstanding requirements of the 
Airline Safety Act of 2010, the establishment of a pilot 
records database.
    On a final note, we are now well in the 21st century. 
However, many of our systems and regulatory platforms are for a 
20th-century world. Now it is time for Congress, stakeholders, 
and the community to work together to do something big to 
ensure that our leadership in aviation is maintained.
    Before I recognize my colleague Mr. Larsen for his 
comments, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material for the record of this hearing. Without 
objection, so ordered.
    And now I would like to yield to Mr. Larsen for any opening 
remarks.
    Mr. Larsen. Thank you, Mr. Chairman. I have an opening 
statement that I will just summarize given the interest of time 
and the interest of the Members here today at the hearing. I 
want to just emphasize a few things in my opening statement.
    First off is safety, that as we do the FAA reauthorization, 
safety must be first thing on our mind.
    Second is investment. We need to find a way to work with 
FAA to ensure stable and adequate funding to mitigate impacts 
of sequestration and other constraints on the agency.
    Third is NextGen. Although there have been problems with 
implementation, with your leadership, Mr. Chairman, and working 
with the RTCA and NextGen Advisory Committee we have been able 
to ensure a development of four key recommendations. That 
funding has been in the 2015 budget for those recommendations 
and we need to start looking at what the next steps are for 
NextGen reauthorization.
    Fourth is certification. As you mentioned, the consistent 
regulatory environment for consistent certification approvals 
for components and platforms is critical.
    And finally, the integration of UAS in the commercial 
airspace.
    These are some of the issues that I know we will be dealing 
with. But with that, I would ask unanimous consent for my full 
statement to be put in the record.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    Mr. Larsen. With that, I yield back.
    Mr. LoBiondo. Chairman Shuster.
    Mr. Shuster. Thank you. Thanks, Mr. LoBiondo, for holding 
this hearing.
    And, Administrator Huerta, thank you for being here today.
    I will be brief also because I know the Members have 
questions and we have shortened time here today. But I 
appreciate you being here today, and I think my two colleagues 
have laid out all the issues that we all want to solve. I hope 
that we can continue to be talking and start maybe a more 
intense debate about how we do significant reform, you and I 
have had these conversations, where we look around the world 
today and the air traffic control organizations literally 
across the world are being pulled out of Government and 
functioning more as a business. And they are maintaining 
safety. They are run more effectively, efficiently. They are 
limiting the political process.
    We have seen the 23 extensions, the sequestration, the 
Government shutdown, the political infighting that goes on. 
When you take it out of Government then they can operate and 
make decisions. They can make those investments long term 
without Congress as part of the problem.
    So, again, I look forward to having the discussions. And I 
will ask my question right now. So maybe somewhere in the 
process are you open to talking about serious, significant 
reform to the FAA to move the organization more to what the 
rest of the world is doing? So I look forward to hearing your 
testimony and questions today. So thanks for being here.
    I yield back.
    Mr. LoBiondo. Thank you, Chairman Shuster.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, I have put my remarks regarding the 
reauthorization in the record. I share many of the concerns and 
objectives that have been raised. But I want to raise something 
else because I am quite concerned.
    GAO released a report yesterday--I was one of the 
corequesters of that report--which pointed out significant 
problems with the FAA in terms of cybersecurity. And I don't 
think I have ever seen a GAO report before that had 168 
corrective actions and 17 general recommendations. And I have 
got to say that I am very, very concerned. To me, it is a 
nightmare scenario. I spent a number of years on the Committee 
on Homeland Security. We know there is an enduring interest in 
terrorist groups in aviation. They have used our aviation 
system as weapons. One can imagine they might be interested in 
hacking the system and perhaps could facilitate a midair 
collision.
    So I am very, very gravely concerned about this, and I hope 
that the Administrator can briefly address what he intends to 
do and how quickly we can move to secure the system. Thank you.
    Mr. LoBiondo. Thank you, Mr. DeFazio.
    Today we are very pleased to welcome the Honorable Michael 
Huerta, Administrator of the Federal Aviation Administration.
    Thank you for being here. We look forward to your 
testimony.

  TESTIMONY OF HON. MICHAEL P. HUERTA, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Mr. Huerta. Thank you. Chairman Shuster, Ranking Member 
DeFazio, Chairman LoBiondo, Ranking Member Larsen, members of 
the subcommittee, thank you for inviting me to appear before 
you today to speak about reauthorization of the FAA.
    It seems like not that long ago we were united behind the 
FAA reauthorization of 2012 with a sense of urgency to provide 
long-term funding to support our Nation's aviation system, and 
now we are here to continue that work. We have a joint 
responsibility, Government and industry, to pull together to 
create the air traffic system that will carry this Nation well 
into the 21st century.
    In the last 5 years, the FAA has made major progress in 
transforming our airspace system through NextGen, and that 
progression continues as we speak. The FAA has delivered on its 
commitment to build the foundation that will support the many 
applications of NextGen. In 2014, we completed the coast-to-
coast installation of a network of radio transceivers that will 
enable a satellite-based air traffic control system that 
provides a more precise and efficient alternative to radar.
    With this foundation now in place, we are working with the 
airline industry and the general aviation community to help 
them to do their part to meet the requirement to equip by the 
2020 deadline. By the end of this month we will finish the 
upgrade of our en route air traffic control automation system. 
This system will accommodate the new technologies of NextGen. 
This is one of the largest automation changeovers in the 
history of the FAA, and it results in a more powerful air 
traffic system that can handle the challenges of the coming 
decades.
    Through our collaboration with industry, last year we 
identified and agreed on key priorities in implementing NextGen 
and we have been following through. We now have more satellite-
based procedures in our skies than radar-based procedures. We 
have created new NextGen routes in cities across America that 
are saving millions of dollars in fuel burn, shortening flight 
paths, decreasing carbon emissions, and cutting down on delays. 
All of this means that airline schedules are more predictable 
and travelers face fewer delays.
    The United States stands as a leader in aviation 
internationally and we intend to remain the gold standard. Our 
manufacturers produce innovative aircraft and avionics that 
help maintain our Nation's positive balance of trade. We are 
truly unique in that we have the most diverse aviation 
community, which includes new users like unmanned aircraft and 
commercial space vehicles. Civil aviation contributes 12 
million jobs and $1.5 trillion to our national economy.
    America's leadership in aviation is being challenged on a 
global level, however, with the growth of foreign competitors 
and the shifting dynamics of supply chains. Domestically, the 
FAA faces challenges I think we can all acknowledge. We have 
competing priorities among our stakeholders, one of the 
byproducts of a healthy and diverse system, and we have had to 
navigate a constrained fiscal environment in recent years with 
nearly two dozen short-term extensions prior to the 2012 
reauthorization.
    The FAA needs to prioritize its resources to leverage new 
technology and to respond nimbly to evolving challenges. To 
maintain our global leadership and to continue to reap the 
economic benefits of this industry we should use the upcoming 
reauthorization to provide the FAA with the tools necessary to 
meet the pressing demands of the future. A lot is at stake, and 
we need to get this right.
    To that end, the Administration has developed a set of 
principles that we believe will improve our Nation's airspace 
system and set the course for future progress. First, we need 
to maintain our excellent safety record and foster the use of 
data and the use of analysis to focus our precious resources on 
the areas of highest risk in our aviation system. We must 
continue the modernization of our air traffic control system. 
Part of that effort is to ensure stable funding for core 
operations and NextGen investments, and collaboration with 
industry is absolutely essential. We need to deliver benefits 
and the industry needs to equip to use these improvements.
    FAA reauthorization should secure appropriate funding for 
our Nation's airports. It should also enable the integration of 
new users into our airspace system and support the agency in 
fostering a culture of innovation and efficiency.
    The FAA also needs to realign today's airspace system with 
current demands. We need the flexibility to make investment 
choices that further the health of our airspace system so that 
everyone can benefit.
    Finally, we need to maintain our position of aviation 
leadership on the world stage. This means the FAA needs to 
remain at the table to shape and harmonize international 
aviation standards and promote seamless travel around the 
world.
    We are extremely proud of America's aviation heritage and 
the innovation and inspiration that our strong and diverse 
system has always provided. I look forward to working together 
to make sure that the United States continues to lead the world 
as we create the right conditions for further innovation and 
achievement in the second century of flight.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Huerta.
    On the topic of NextGen, we have spent a lot of time, and I 
know there are tangible and now some measurable results, but 
there is still, in the minds of many Members and certainly for 
a lot of the stakeholders, a serious disconnect between what 
the Government auditors are saying and what the FAA is saying.
    And I am hoping you can shed some light and explain why 
there is such a disconnect where we have the FAA stating that 
NextGen is on time and delivering the benefits expected and 
Government auditors, which we heard from as recently as last 
week, talking about little benefits and slow implementation.
    And we are not talking about from 10 years ago. We are 
talking about this report we got last week was, like, in the 
last couple of years. Could you help us understand this?
    Mr. Huerta. Certainly. Thank you, Mr. Chairman.
    NextGen is a very complex undertaking and it requires the 
deployment of core foundational technology upon which we build 
applications that the users are able to take advantage of. Both 
of those activities need to continue in tandem.
    The agency has been very focused on delivering the core 
infrastructure programs, such as the ADS-B program that I 
referenced in my opening statement, as well as the en route 
automation platform. The ADS-B program was delivered on time 
and on budget. The ERAM program was delayed, but we are coming 
to the conclusion of that. These programs create an important 
foundation.
    At the same time, however, the FAA has taken the step to 
work with the stakeholders, the airline industry and the 
general aviation community, to deliver specific benefits and to 
deliver them now. The focus of that has been on performance-
based navigation where we have developed a number of programs 
in metropolitan areas to redesign airspace to result in very 
efficient flight paths that reduce fuel burn and therefore 
reduce cost to the industry.
    Last year there were two very significant developments with 
the redesign of the airspace around Houston, where we deployed 
61 new air traffic procedures in a single day, followed by 
north Texas, where we delivered 81 new efficient procedures in 
a single day.
    We have also done airspace redesign projects here in 
Washington, DC, and in northern California and in Seattle, and 
other metropolitan areas are following. These metropolitan-
focused benefit programs yield very, very significant fuel 
savings.
    Longer term, with the foundational infrastructure in place, 
we can focus on the national benefit programs, programs such as 
DataComm that we have been doing trials on and which we expect 
to complete in 2019.
    It is true that it is a project that has taken many years, 
but we are delivering benefits for users and we are delivering 
them now, and that pace will continue in the years ahead.
    Mr. LoBiondo. On the issue of safe integration of unmanned 
aircraft systems, of course it is of great interest to many 
people across the country, as you know. How does the FAA plan 
to utilize the test sites while it works through the small UAS 
rulemaking?
    Mr. Huerta. The test sites play a critical role in serving 
as the focal point for data and analysis and research in the 
areas of unmanned aircraft systems. As a result of research 
that is taking place at the FAA's Tech Center in Atlantic City, 
a lot of good research is being done on critical technologies 
that are essential for safe integration of unmanned aircraft. 
These include technologies such as detect and avoid, how do 
these aircraft sense other aircraft, which is critical to 
ensuring that they can be safely integrated. Likewise, it 
serves as the repository to share research data among the six 
test sites so that the research done at one test site can be 
broadly understood and can be used to eliminate research in all 
the other test sites. The Tech Center plays a critical role.
    Mr. LoBiondo. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    So, Administrator Huerta, you outline in your testimony, 
your oral testimony and written, some of the advances you have 
made in NextGen implementation. So I have two questions on 
that. Despite that outline, there are still concerns not just 
from the industry, the airlines, but from other folks that 
nothing is being done or we are still way behind, all sorts of 
criticisms along those lines. Can you briefly address that?
    Mr. Huerta. The key developments that we have been able to 
make with NextGen have really brought the system a long way in 
realizing those benefits. I understand the skepticism that the 
industry and others in the system have had over many years, but 
I would encourage everyone to look at the very significant 
progress we have made in the last 5 years, as we have built out 
the foundational technologies and as we have been very, very 
focused on delivery of benefits.
    Under the direction and with the support of this committee, 
we have engaged actively with industry. The key part of doing 
that was to ensure that what we were focused on was delivering 
the priorities that industry want. As you know, we reached 
agreement with industry on four key areas of priority that they 
want us to focus on in the near term for the delivery of 
benefits. That was done through a collaborative process. We 
reached agreement on those priorities and we are tracking to 
the milestones that were set forth in those priorities.
    They include a significant increase of and focus on 
performance-based navigation, which we are doing through our 
Metroplex program. They want us to focus on surface operations, 
which we are very, very committed to. We also have a 
significant focus on DataComm. Right now the program is running 
in trials in two airports and will be deploying in two more in 
the months ahead.
    So by working in collaboration with industry we have 
identified their priorities. We are very focused on continuing 
to deliver in those areas.
    Mr. Larsen. OK. And the chairman and I sort of feel like ex 
officio members of the NAC at times when it comes to NextGen.
    So I know on UAS there is a significant backlog of section 
333 exemption requests. What can we do to help make this 
process more streamlined? I know we have talked about 
approaching it from a programmatic approach rather than a one-
off exemption approach without compromising safety. Can you 
provide an opinion of this programmatic approach that some of 
us have talked about?
    Mr. Huerta. Absolutely. Under section 333 of the 
reauthorization of 2012, Congress granted us the authority to 
grant exemptions to integrate particular users of unmanned 
aircraft into the National Airspace System, and that has proven 
to be a very popular tool. We have a very large number of 
applications that have been received from industry.
    Mr. Larsen. About 450 or so?
    Mr. Huerta. Yes. The challenge that we have is that 
exemptions are granted to an individual or a company for a 
specific purpose. The agency has very limited ability to grant 
blanket exemptions to whole classes of users. So what that 
means is that we have to evaluate each application on its own 
individual merits and the specifics of what they want.
    Mr. Larsen. Would the agency argue that that is the 
language that section 333 says it has to do?
    Mr. Huerta. It has to do with the nature of an exemption. 
What section 333 authorized was the ability to grant an 
exemption. An exemption is to an individual for a specific 
purpose, and so it is the relationship of the two things. 
Anything that we can do that would enable us to look at classes 
of operators that have substantially identical facts or very 
similar characteristics I think could be quite helpful.
    Nonetheless, in the near term we are looking at what we can 
do to continue to streamline the process of granting the 
exemptions as we are currently doing them.
    Mr. Larsen. All right. That is fine.
    I will yield back, Mr. Chairman.
    Mr. LoBiondo. Chairman Shuster.
    Mr. Shuster. Thank you.
    Again, welcome, Mr. Huerta.
    Mr. Huerta. Thank you.
    Mr. Shuster. I laid out for you in my opening statement the 
problems we have seen with the sequestration, the 23 
extensions, the problem with the DOT inspectors, the GAO report 
that Mr. DeFazio pointed out. And, again, my question is about, 
is the time ripe for us to be engaged in a debate to do 
significant reform?
    One of the things I learned in the last week or so was that 
Verizon, which does a lot of the same kind of things as you, 
manage data signals, moving things around, they have replaced 
their system four times in the last 10 years. They would still 
be in the 1G program instead of the 4G program. They have been 
able to do that, four times replacement in 10 years, and we 
have been talking about NextGen for 25 years.
    Blame the Congress too because of the way we have operated, 
23 extensions, Government shutdowns. Those things aren't 
helpful either. But I think it is time for us to, again, look 
around the world and see that they have taken and moved the air 
traffic control organization out of Government. Let the FAA do 
what they are supposed to do, and that is regulate, make sure 
we get more certainty in the certification program.
    So, again, my question to you, is the time right for us to 
really be sitting down and talking about a significant 
restructuring with governance and the financing system of the 
FAA?
    Mr. Huerta. Mr. Chairman, there are three things that I 
think any structure needs to yield for the FAA as a whole. The 
first and most important we can agree on is that we have to 
maintain the safety of the system. The second is that we have 
to have an expeditious and orderly way to deploy technology and 
to make it operational. And the third is to recognize the tight 
relationship that exists between developing new operational 
procedures and certifying them for safe use within the system.
    The Secretary and I are both very open to a discussion on 
structures that would enable us to achieve that, but I would 
stress that what we have to ensure is that there are not 
unintended consequences that could actually set back the 
significant progress that we are making.
    The other point that I would like to make is that the 
technology systems that the FAA is responsible for are 
fundamentally different in many ways from telecommunications 
and other technology systems in this respect: Their principal 
purpose is to ensure that a system is safe. What that means is 
it imposes, and I think correctly, a very high threshold on the 
performance of those systems, as well as mitigations and 
backups, to ensure that they don't in any way compromise 
safety.
    Clearly, we are all focused on how we can do that as 
efficiently as possible, and we are open to a discussion about 
how best to do that.
    Mr. Shuster. All right. And I agree with you 
wholeheartedly. It has got to be safety, safety, safety. And 
you also have industry. Boeing wants their planes to fly 
forever. And so they are fixated on safety, which they should 
be. But would you agree that there are examples around the 
world that are doing things very differently than we are and 
they still maintain that high level of safety in their 
operations?
    Mr. Huerta. There are examples around the world of very 
different models, but it is also important to recognize that we 
have a significantly different aviation system than any other 
part of the world.
    Mr. Shuster. Just in size alone, is that the----
    Mr. Huerta. In size alone, but also in composition and mix. 
There is no one that has the robust and highly diverse general 
aviation industry that we have. There is no one that has the 
mix of metropolitan and rural areas that we have and the mix of 
airspace and the challenges associated with management that go 
with that. There is no one that has the diversity of users that 
we have, particularly the new ones, such as the development of 
commercial space and the development of unmanned aircraft 
systems.
    What we have to come up with is an operational model that 
works for the United States, not for other countries. I think 
that what will come out of that, recognizing the uniquely 
American set of circumstances that we have, is to come up with 
uniquely American solutions to address them.
    Mr. Shuster. And I agree with that. Making those points 
drives me to believe that NextGen, the technology is absolutely 
essential and we have been talking about it and talking about 
it. And finally the time comes we have to do it, and that is 
why I believe so firmly that we have got to do something 
different. Again, not only because of things not going right at 
FAA, but because of Congress' starts and stops when it comes to 
funding and things that we do up here.
    So, again, I appreciate your openness to talk about this 
and to debate this and look forward to working with you.
    Yield back.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Administrator, I directed a question at the beginning, 
there are concerns about the GAO report. Do you want to tell me 
your reaction, what you are going to do, how quickly you can 
deal with this?
    Mr. Huerta. Sure. Thank you, Mr. DeFazio.
    First and foremost, the system is safe. GAO acknowledged in 
their report that the agency has made significant progress in 
identifying the issues that they talked about, and of the many 
recommendations, many have already been mitigated, and we are 
working closely with them to continue to focus on outstanding 
concerns.
    I am very actively focused on the recommendations. As I 
mentioned, we have remediated a very significant number of the 
technical findings already. We established a Cybersecurity 
Steering Committee a number of years ago. This was part of an 
initiative to give greater focus to the whole question of 
cyber. I have asked them to provide oversight on behalf of the 
agency on a risk-based approach as we address each of these 
recommendations. They are not all equal.
    We have been proactive in identifying other potential 
actions to enhance the cybersecurity posture of our National 
Airspace System, as well as the agency as a whole, and we have 
been working with our other Government partners, those that, 
like us, have technology-based organizations to ensure that we 
are using best practices. It is something that I am very 
committed to and very concerned about, and we are remediating 
this as quickly as we can.
    Mr. DeFazio. You are moving or intending to move a lot to 
the cloud. Doesn't that raise concerns?
    Mr. Huerta. It raises an important question. As we have 
transitioned our National Airspace System from what has largely 
been a closed system to an IP-based system where we are buying 
services from the private sector, what it means is not so much 
that we are opening up a problem that we haven't had, but it 
means that we have to ensure that we are using private sector 
best practices to ensure that we have the appropriate cyber 
controls in place.
    Mr. DeFazio. OK. Well, I haven't had a chance to read the 
168 SSI recommendations, but I have got to say I am going to be 
looking for some very specific assurances when I find some 
critical deficiencies, because a hack of the air traffic 
control system could lead to catastrophic consequences, in my 
opinion.
    Quickly on a couple of other issues. I started maybe 15 
years ago raising concerns about foreign repair stations with 
more and more work moving there. I have concerns that these 
people don't undergo background checks, but also at least 
minimally drug and alcohol testing. We have been working on a 
rule for I don't know how long. Where are we at?
    Mr. Huerta. We did publish an advanced notice of proposed 
rulemaking on drug testing in foreign repair stations. We 
received a number of comments. We are evaluating those now and 
we want to get the notice out in the near future.
    Mr. DeFazio. It has been about, I think, a decade.
    Then how about the centralized database for pilot records? 
Where are we on that?
    Mr. Huerta. We have done a fair amount of work on a 
centralized database. One of the things that we wanted to see 
is what we could learn from other industries that focus on 
centralized records from a wide variety of different technology 
sources.
    This one is technically very difficult for us to work 
through and to do it in a way that we can ensure that it meets 
the appropriate cost-benefit hurdles that it needs to meet. But 
it is something that is within the agency, and I am hopeful 
that we are going to have a resolution of it in the not too 
distant future.
    Mr. DeFazio. OK. And then we have had a lot of talk about 
certification. I am concerned about whether or not you are able 
to have adequate oversight with the proliferation of the ODAs 
out there? I mean, are you concerned about those staffing 
levels? Are you looking at augmenting those staffing levels? My 
understanding is these inspectors are carrying massive 
workloads and they are going to get around, like, once every 3 
years maybe to look at something.
    Mr. Huerta. The challenge is to come up with the 
appropriate balance of how do we use data to determine the 
highest areas of risk and to focus our efforts on those areas. 
Even if the FAA had all of the resources in the world, aviation 
by its very nature is all about innovative technology, and we 
have to ensure that we get the expertise from the people that 
have it. Sometimes that will be from the industry, and the 
designation process is intended to find that right balance 
between what the agency retains and what we rely on industry to 
do on our behalf.
    Mr. DeFazio. So do you think it is optimal at this point 
then?
    Mr. Huerta. I don't think it is optimal because I think the 
industry is always evolving. I know that we have to be more 
nimble in how we do our part of it. Likewise, we have to have 
appropriate tools that enable us to audit industry acting on 
our behalf to ensure that there are not problems in the system.
    Mr. DeFazio. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. DeFazio.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thank you for 
expressing our continuing concern about the cost overruns on 
the NextGen contracts and so forth.
    But, Mr. Administrator, I have two other concerns. First of 
all, there is great interest in and even great concern about 
unmanned aircraft, drones, and the DOT inspector general 
several months ago issued a report about the FAA being behind 
schedule and there being what they called a magnitude of safety 
and privacy concerns about drones. We are reading that Amazon 
and a lot of other big companies want to do potentially 
millions of deliveries by drones. People are wondering about 
are they going to walk through their neighborhood and have to 
dodge these vehicles, and privacy concerns, and so forth.
    Where do you see all of that heading and are we going to be 
able to put limitations or control on some of these unmanned 
vehicles?
    Mr. Huerta. Mr. Duncan, I think you have very well 
summarized the three competing things that need to be balanced 
as we integrate unmanned aircraft. On the one hand, there are 
the innovators that want to take advantage of the technology to 
do as much as they can. On the other hand, the public has 
expressed concerns about how they are safely integrated. There 
are also concerns that have been expressed about ensuring that 
individuals' rights to privacy are protected.
    The FAA is extremely concerned and very focused on how we 
balance the first two of these. How can we provide for 
integration, but how do we ensure that it is done safely? The 
small UAS rule that we put out earlier this year strikes a 
balance between dividing the industry into different classes of 
unmanned aircraft; very small, where there might be less risk, 
and then larger, where we would suggest that there would be 
different requirements that should be created for them.
    We have proposed to create a different class of operator, 
not a pilot's license but an unmanned aircraft operator, and 
for certain classes we have proposed that they be exempt from 
the certification requirement. But they still need to meet 
appropriate standards of safety.
    On the same day that we announced our rule, the White House 
put out a policy related to privacy, and I think that reflects 
the larger concern that we as a Government need to be concerned 
about, and that is how do we ensure the appropriate levels of 
protection for personal privacy.
    The Government's policy deals with the Government's own use 
of unmanned aircraft, but the President also tasked the 
Commerce Department through the NTIA to really take the lead in 
looking at these larger questions of privacy and how do we 
ensure that individuals' privacy is protected.
    We are going to need to balance all of these things as we 
integrate unmanned aircraft into the airspace system and as we 
do it safely.
    Mr. Duncan. Well, thank you. There are other aspects to 
that, but I don't have time to get into all that. I do want to 
raise my other topic that I have always had so much concern 
about. In the late 1990s, Atlanta Airport testified before us 
that their main, longest runway took 14 years from conception 
to completion. It took only 99 construction days.
    And in every aspect or every part of the work that this 
committee does, highway projects, the rail bill that we will 
have in there today, we have tried to put in environmental 
streamlining. Sometimes over the years it seems that we have 
been more successful at lip service than we have about actual 
action and speeding things up. And we seem to take about three 
times as long as other developed nations on almost all these 
other major transportation projects.
    Are you satisfied that we are doing everything that needs 
to be done, speeding up project delivery times and an 
environmental streamlining, so we can get these things done in 
cost-effective ways?
    Mr. Huerta. The Congress gave us some important tools in 
our last authorization in 2012. Those are dealing with the 
environmental process as it relates to airspace redesign, which 
is critical for us to deliver performance-based navigation and 
NextGen. There were two categorical exclusions where Congress 
directed us that, under certain criteria, we could make a 
finding of a categorical exclusion, which greatly accelerates 
the environmental process.
    The first one we adopted as policy. The second one we 
worked with the NextGen Advisory Committee to come up with a 
way forward of how to implement it. So this is something that 
we are very focused on.
    I will say that in your home airport in Atlanta, one of the 
things that we have been focused on in the airspace redesign is 
how we can get more capacity out of the runways that they have 
already built. As a result of that activity we have been able 
to get a significant increase in both the arrival and departure 
capacity as a result of doing airspace changes and relying on 
this streamlined process that we are talking about.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you.
    Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    A few questions that I have. First, I will start out with 
this one. Lewis University Airport is located in Will County, 
which is an important part of my district, one of the fastest 
growing regions in northeastern Illinois. Lewis University 
Airport submitted a list of capital needs to the Illinois 
Department of Transportation, which administers the FAA State 
Block Grant Program.
    A few of the priorities include land acquisition for runway 
safety, a runway rehabilitation project, and most importantly, 
a control tower, which is critical to support the airport's 
role as a generator of regional economic growth, an important 
reliever airport for Midway and O'Hare International Airports, 
and also a training school.
    I appreciate the meeting that we are going to have next 
month to discuss these important needs. I look forward to that 
meeting and discussing what potential ways there are for the 
FAA to fund these projects, but especially the control towers.
    That leads me to a more general question. I am wondering if 
you can provide any updates on the remote tower initiative that 
is ongoing?
    Mr. Huerta. Thank you. The FAA has started a program and is 
conducting research on what technology enables us to do in 
terms of using a remote tower capability. Essentially, it is a 
combination of sensors, cameras, and other technology that 
creates, if you will, a virtual tower. The controllers that are 
actually removed from the facility in question have the ability 
to operate it as if it is a tower that is located on the field. 
This is technology that has been deployed in some very remote 
regions of the far northern parts of Europe, and we have been 
focused on working with that technology.
    We do have a program that we are doing in conjunction with 
the Commonwealth of Virginia to actually test this here at 
Leesburg Airport. This is a project that we are working 
cooperatively with our labor partners, as well as the airport, 
in order to test this technology and understand how it works, 
not only for Leesburg, but how it works in conjunction with the 
congested airspace surrounding the Washington airports.
    The interaction between what we are doing at this 
particular airport I think will be very useful. If the results 
are promising, this is something that I want to move out on 
very aggressively because it holds great potential to address 
the needs that you are discussing.
    Mr. Lipinski. Any sense of when you may have the results 
that you are confident in?
    Mr. Huerta. It depends on where this takes us. The program 
is really just getting started at Leesburg right now. We have 
to develop some data in terms of how it operates in different 
kinds of weather and different traffic conditions. We can 
provide detailed information on that to your office on a 
regular basis so that we can give you a sense of what we are 
learning from that.
    Mr. Lipinski. Thank you.
    Lewis University is one of the 36 Air Traffic Collegiate 
Training Initiative schools, and students from my district and 
across the Nation chose to attend Lewis because of the 
advantages that CTI schools provide. We all know that the 
hiring process was changed just over a year ago and this really 
hurts the students who decide at a young age to enroll in a 
program fostered by the FAA. I understand that a graduate of a 
CTI school is never guaranteed a job, but they did have an 
advantage in the hiring process that they gained in exchange 
for working hard in school while paying tuition.
    I think the unique nature of these degrees is also worth 
noting. While a CTI graduate with a specialized degree can 
always pursue a different career path, the window to become an 
air traffic controller closes shut at age 31 and there is no 
going back.
    I am wondering, I would like to know what the FAA is 
planning to do this year to build off the language of H.R. 83 
to help students who enrolled or graduated after the hiring 
changes. I understand the purposes of the hiring changes, but I 
am concerned about the students who have put all of the time 
and effort and money into the CTI programs.
    Mr. Huerta. Sure. We are implementing the provisions of the 
piece of legislation that you mentioned in this year's hiring 
program, and we have identified all the individuals that are 
affected by those provisions going forward.
    I would like to step back and talk about the broader points 
that you make about the benefit of the education program, as 
well as the point about there being no guarantee. This is a 
highly competitive job. We received 28,000 applicants for 1,600 
positions, so under any scenario there will be a lot of people 
that would like the job that don't get it.
    But of those that we selected, two-thirds were CTI 
graduates, which I think indicates the value of the CTI 
education and how it positions people to compete for this 
highly competitive profession.
    Mr. Lipinski. Thank you. My time I yield back.
    Mr. LoBiondo. Thank you.
    Mr. Rokita.
    Mr. Rokita. I thank the Chair.
    And, good morning, Administrator. Good to be with you. And 
could you keep your microphone really close to your mouth? 
Maybe that would help.
    Mr. Huerta. OK. Sorry about that.
    Mr. Rokita. Yeah. Thank you very much.
    Listening to your testimony and some phrases have popped 
out. Let me reiterate them, and I apologize for the paraphrase. 
Feel free to push back if I am unfair in the paraphrasing. But 
you have testified so far that we need to keep our leadership 
position in aviation on the world stage. You said no one else 
in the world has a GA industry as robust as ours. That is fair. 
And then you said we need to come up with uniquely American 
solutions because we have an airspace system and a population 
of different stakeholders and users that is unique. Fair?
    Mr. Huerta. Fair.
    Mr. Rokita. I agree with all that as well. My question is, 
it is clear to me you are not a short order cook. OK? It is 
clear to me the agency is not a short order cook, nor should we 
be when it comes to promulgating regulations. I believe in the 
old adage measure twice, cut once. But how long do you think it 
should take to come up with these uniquely American solutions 
in terms of promulgating regulations?
    Take the General Aviation Pilot Protection Act, the 
legislation that would repeal the third-class medical 
requirement, generally. We have talked about that. You have 
written rules, apparently, but we haven't seen them. You said I 
would like the rules, and perhaps 180 of us as cosponsors would 
like the rules, perhaps love the rules. Maybe I will use the 
word love. Maybe you said like. I am waiting to like. I am 
waiting to love.
    Are you satisfied with how long it is taking for either 
these rules or how long it took for the UAS rules to come out 
or the fact that the part 23 rewrite has gone way beyond the 
time?
    And I am not trying to give you a gotcha question. Just as 
a fellow leader, and as a person who used to run a big agency 
himself, how do you keep the accountability train moving? How 
do you measure metrics? How did you measure progress in these 
situations?
    Mr. Huerta. The regulatory process, as you know, is quite 
deliberate. It can be quite frustrating. It is intended to 
balance and to deliberate over many competing objectives that 
are out there.
    On the point of the third-class medical, you are correct, 
the agency has done a lot of work in this area, and we have 
been in a discussion with our administration partners on what 
is the best way to proceed going forward and how we could 
proceed on this and make it available for comment.
    I think that the process certainly takes longer than I 
would like. It is something that I understand, though, because 
there are many competing points of view and in the other 
regulatory----
    Mr. Rokita. These haven't even gotten out to the public. It 
is not just about GAPPA. It is about the part 22 rewrite.
    Mr. Huerta. I understand.
    Mr. Rokita. It is about the UAS that just hit the street, 
those regulations. I mean, yes or no, satisfied?
    Mr. Huerta. I think that I would like to see a quicker 
process, but I understand that there are a lot of competing 
interests that need to be resolved.
    Mr. Rokita. Thank you. In that same vein, when do you 
anticipate implementing the Aviation Rulemaking Committee 
recommendations for sections 312 and 313 of the last 
reauthorization that had to do with the aircraft certification 
and the streamlining competing regulations?
    Mr. Huerta. Section 312, we submitted the report to 
Congress in 2012, as you know. We have completed, I believe, 10 
of the 14 recommendations or activities that we put forward 
with respect to that and we are focused very much on the 
others.
    Mr. Rokita. Any timeline?
    Mr. Huerta. I will have to get back with a specific 
timeline on that.
    Mr. Rokita. When can you get back to me?
    Mr. Huerta. We can get back to you soon.
    Mr. Rokita. Next week, 2 weeks?
    Mr. Huerta. Next week. Next week. We will get back with you 
next week with a report.
    Mr. Rokita. Thanks, Administrator.
    Next question that I had, regarding AIPs and PFCs, do you 
have any comments, does the agency have any comment on what the 
cap should be and is it time to raise the passenger facility 
charge, or is it time to tweak the measurements or the formula 
or the priorities that we issue AIP moneys, especially in the 
pure discretionary area?
    Mr. Huerta. The Administration set forward its proposal in 
the President's budget, which would raise the PFC from the 
current cap of $4.50 to $8 for large airports and at the same 
time remove the large airports from the entitlement formula 
program. The thought here is that the large airports have the 
ability to generate significant revenues based on their own 
activities, but at the same time to preserve the basic access 
requirements for smaller communities and smaller airports.
    Mr. Rokita. I yield back. Thank you.
    Mr. LoBiondo. Thank you.
    A couple of notes for the good of the order. There has been 
a request because of the time crunch, and we covered this at 
the beginning, but just to make it clear, any Members who have 
questions that there will not be time for, we will submit for 
the record.
    And, Mr. Huerta, I am sure your team will help get back to 
us.
    Mr. Huerta. Absolutely.
    Mr. LoBiondo. And then I would like to ask unanimous 
consent, in light of the hard stop at 10:40, very hard stop at 
10:40, in consultation with Mr. Larsen and Mr. DeFazio and Mr. 
Shuster, that we go to a hard 3-minute questioning.
    Mr. Larsen, would you like to comment?
    Mr. Larsen. You had talked to us about it, Mr. Chairman, 
and I know it is going to be difficult for Members with that, 
but with the hard stop facing us, we accept that.
    Mr. LoBiondo. OK. So without objection, so ordered.
    Mr. Carson, you are recognized for 3 minutes.
    Mr. Carson. Thank you, Chairman.
    Administrator Huerta, thank you, sir.
    Indiana airport directors who are here today briefed our 
delegation this morning about their consensus regarding the 
need for Congress to raise the cap on passenger facility 
charges. Now, they are being as creative as they possibly can 
be to finance the critical infrastructure, as you know, sir, 
the projects needed across the great Hoosier State. But it is 
not enough. I think we all know that.
    First, sir, do you think it is possible, or even realistic 
for that matter, for local airports to make the infrastructure 
improvements they need without raising PFCs? And secondly, if 
you agree that the PFCs need to be raised, how should that be 
done? What does that look like in real terms? And what are your 
thoughts about any recommendations?
    Mr. Huerta. Well, our proposal clearly would indicate that 
we do think it is an appropriate time to raise the PFC for the 
larger airports, in particular. The proposal to take it from 
$4.50 to $8 essentially has the effect of adjusting it for 
inflation from when the last time that the PFC was set.
    I think that it is important that those airports that have 
the ability to derive revenues locally do have all of the tools 
at their disposal, and the PFC is a very, very important tool 
in that toolbox to enable them to meet their needs.
    Mr. Carson. Thank you, Mr. Chairman. I yield back.
    Mr. LoBiondo. Thank you, Mr. Carson.
    Mr. Hanna for 3 minutes.
    Mr. Hanna. Thank you.
    There is a theme here today that the FAA is fundamentally 
behind in everything, right? So the question I have for you is, 
along with Mr. Rokita's comments, we are seeing U.S. companies 
going overseas to test UAVs. So the question I have is, how can 
Congress in this next authorization help you deal with that, 
and what can we do from here to help you be more efficient and 
perhaps lure these companies or keep these companies from 
moving overseas?
    Mr. Huerta. I could give you a couple of suggestions with 
respect to that. The first is, as we work through the----
    Mr. Hanna. Excuse me, do you agree that that is the case?
    Mr. Huerta. In part, but that is what I am going to 
address.
    The key thing that I think that we look forward to working 
with the committee on is the implementation of the small UAS 
rule, which if implemented in the form that we proposed would 
provide the most flexible regulatory environment for small 
unmanned aircraft anywhere in the world.
    The second thing is Congress provided very significant 
support for integration in the last authorization. The chairman 
noted the development of the unmanned aircraft test sites as 
being key to that. One of the things that we want to use the 
test sites to focus on is the very testing that you are talking 
about. We have heard, though, from many members of the unmanned 
aircraft community that since no funds were authorized for 
appropriation to the test sites, the test sites have turned to 
the testing itself as being the business model through which 
they support themselves. I have heard a story from one company 
of being charged a quarter million dollars for a week's testing 
for a small manufacturer of unmanned aircraft.
    So I think providing a supportive framework that enables 
the test sites to provide low-cost testing resources for 
companies here in the U.S. would be something that would be 
very worthwhile.
    Mr. Hanna. Thank you. I yield back.
    Mr. LoBiondo. Thank you.
    Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. My question has to do with the CTI 
institutions. In 2012 and 2013 Arizona State University 
participated in an FAA diversity study. The survey highlighted 
the CTI organization's historically diverse alumni pool. ASU's 
CTI graduates certify at a rate two times faster than the 
national average, thereby significantly reducing the FAA cost 
to the taxpayers. The FAA's recent change in hiring practice 
has eliminated employment possibilities for over 400 Arizona 
students and graduates. The nationwide impact is much greater 
as CTI institutions exist in over 20 States.
    The students in these classes have made large personal 
investments based upon published FAA commitments to hire and 
based upon longstanding practices. So my question is, why make 
the change now? Why has this change been made?
    Mr. Huerta. The first thing to recognize is that the air 
traffic controller position is an extremely attractive 
position, and there will always be more candidates than there 
are positions. Earlier I used the example of last year where we 
had 28,000 applications for only 1,600 positions. So this is a 
rate that is less than a lot of elite colleges in terms of your 
ability to get a job.
    The CTI program does not provide any degree of guaranteeing 
anyone having a job, but it is something that the agency takes 
very seriously. In this last hire, two-thirds of those hired 
came out of CTI institutions, so it does recognize that what we 
have in the CTI program is skill building that enables us to 
get people through the system.
    What we are trying to balance and recognize is, as the 
profession changes, we want to ensure that the air traffic 
controller position is available for the broadest range of 
qualified candidates so that we can get the best pool of 
applicants, so that we can ensure the most qualified workforce 
and the safest system that we possibly can have.
    Mrs. Kirkpatrick. My concern really is about the cost to 
the taxpayer. So I hope you will factor that into that equation 
as well.
    Thank you, and I yield back.
    Mr. Shuster [presiding]. Thank the gentlelady.
    And Mr. Graves for 3 minutes.
    Mr. Graves of Missouri. Thank you, Mr. Chairman. I have a 
lot of questions, but we are obviously not going to get to 
them.
    I do have one real quick, and I don't know if you can give 
me a real fast answer on your revised guidance document when it 
comes to hangar policy. And I have got to say, I don't know 
why, given the limited resources the FAA has, why the FAA is 
even delving into this. I think it is a local airport authority 
issue and should be that. But I know you have got a policy that 
is sitting out there. Do you know what the status is right now?
    Mr. Huerta. I will check on it this afternoon and get you a 
response, Congressman.
    Mr. Graves of Missouri. All right. And then the next thing 
is something I am hearing from all over the country, and this 
concerns me a great deal from the small business standpoint, 
and that is the change in policy the FAA has come up with when 
it comes to testing pilot proficiency check rides in restricted 
use aircraft. We have got businesses out there, as an example, 
firefighting, they are authorized to use the aircraft, but now 
they are no longer authorized to be able to test without an 
exemption. You have got an exemption process in there, but we 
are hearing that that process can take months, and this is 
going to shut down a lot of those businesses.
    The process of being able to test or do your test or 
proficiency check rides in these aircraft is a policy that has 
been in place for 50 years, and I know the FAA just changed it, 
and it is serious. Businesses are calling, they are frantic 
because they are going to go bankrupt if they can't do their 
business. This has to be resolved right away. It is a problem. 
And, again, it goes back to not having enough resources to be 
able to process these exemptions very, very quickly if there is 
even an exemption issued.
    Mr. Huerta. Sure. Let me check on it.
    Mr. Graves of Missouri. OK. Thanks.
    Mr. Shuster. As the gentleman knows, you can submit all the 
questions you want for the record.
    Mr. Graves of Missouri. Well, I have four.
    Mr. Shuster. And with that, Ms. Norton is recognized for 3 
minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I have a question that I think must trouble other Members 
from major metropolitan regions. I notice on page 4 of your 
testimony you say that you want to make aviation safer and 
smarter. And I wonder if NextGen and what you are doing there, 
whether that also applies to making planes less noisy. There 
are a number of communities near the Reagan National Airport--
the Foxhall, Palisades, and Georgetown communities, with 
constant issues before NextGen, and we have had some NextGen 
implementation here. Later this spring I am going to be having 
a community meeting.
    I am troubled, though, that the community has been meeting 
with the FAA and with the Metropolitan Washington Airports 
Authority, and thus far the questions about noise, and noise 
itself, remain and the questions are unanswered.
    It seems to me that it would be very important for there to 
be a collaboration between FAA and communities, particularly 
since these communities are now densely populated with real 
people. And I am asking if you will be available or if FAA will 
be available to participate if I have a community meeting 
trying to sort these issues out?
    Mr. Huerta. The FAA will certainly work with you to address 
these community concerns and to respond to them. I can give you 
a couple of things that we are working on, though. As a result 
of the redesign of the airspace here in the Washington area, we 
have been working very closely to ensure that flight paths are 
more precise, that they follow the river.
    Ms. Norton. Yes, that is critical, rather than following 
the community.
    Mr. Huerta. The river does wind, but as a result of 
technology we are able to follow it much more precisely. That 
is something where we have a very active program with MWAA, the 
Metropolitan Washington Airports Authority, to ensure that 
aircraft are in fact following the river going forward.
    We have a larger initiative that we have undertaken as 
well, which is really to study the question of the DNL metric, 
that is the day-night average method that is used as the 
measure of aircraft noise. This is something that has been 
around for a very long time. As a result of just the changes in 
technology, as well as the evolution of how aircraft engines 
and aircraft airframes have evolved, we want to validate and 
determine whether we need to change the metric of how we look 
at noise and how we measure its impact on communities.
    Ms. Norton. This would be very important. A resident wrote 
the FAA's ombudsman and has said that there are only 3\1/5\ 
hours per night when there are no flights over these 
communities. This is just unacceptable.
    One more question, if I have time.
    Mr. Shuster. Your time is going to expire. So I would ask 
you to submit it in writing because we have 6 minutes and I 
have got two Members here.
    Ms. Norton. Let's let those Members speak then.
    Mr. Shuster. OK. And submit it for the record.
    Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    And thank you, Mr. Administrator.
    Twelve years ago I fought to get on this committee and one 
of the first things I learned about was NextGen. Sounded great 
to me, safety and improved efficiency. Twelve years later and, 
I don't know, about 1,000 hearings on NextGen, and, I don't 
know, give or take $5 billion of taxpayer money and I don't 
know how much money in private companies.
    It has now been implemented in Boston. And I have got to be 
honest, Mr. Administrator, my support is significantly 
wavering. I don't see much change for all the money and effort. 
This is not laying on you. I don't think there is anything bad, 
I think it is good to try something new. But sometimes it is 
also good to say maybe it is not worth the money.
    And I am kind of at that point now. Especially I am 
following up on a question on DCA, as far as Boston goes, I am 
told that I can't even intentionally fan planes because, oh, 
no, we can't do that, yet in DCA you can do this. I just landed 
that way the other day, sounded great. I understand it. But I 
can't do it anyplace else. That doesn't make sense, especially 
when we spend all this time and money on a system that should 
allow you to do that exact same thing.
    Mr. Administrator, I have got to tell you, my real basic 
question is, why should I continue to support throwing money at 
NextGen when I have yet to see enough bang for the buck when it 
comes to decreasing noise, when it comes increasing safety, 
when it comes to decreasing delays, or any of other things that 
we had hoped that NextGen would support.
    I want to be clear, I have always been a supporter of 
NextGen. I kind of still am, but I won't be until we start 
seeing these savings again really quickly. I haven't seen them 
and I don't think I am going to see them in the near future and 
I just would like to give you the opportunity to convince me to 
hang in there.
    Mr. Huerta. Well, I would encourage you to hang in there. 
We are seeing significant benefits all around the country. But 
I would like to talk about some of the specific things we are 
doing in Boston. Boston Center has been fully upgraded in terms 
of the new automation platform, the en route automation 
platform that is really central to the deployment of all of the 
NextGen benefits that we are talking about, and it is operating 
and operating very, very well.
    Boston Logan Airport is an important test facility for us 
to test a lot of NextGen-related surface operations that 
greatly increase the efficiency of the airport, reducing 
departure delays, and also reducing congestion on the ground. 
We have a great relationship with the Massachusetts Port 
Authority to try to make the airport operate more efficiently.
    As we deploy more performance-based navigation procedures 
at Boston and at all the New England airports and throughout 
the country, what the airlines get is more efficient fuel 
consumption, as well----
    Mr. Capuano. Mr. Administrator, I don't mean to interrupt 
you, and that is all well and good, but why are my complaints 
going through the roof? I mean, I have always had complaints 
about the airport, it is a congested area, but there are now 
much more than there have ever been. And, honestly, it started 
when RNAV was implemented.
    Mr. Huerta. Well, I think it goes back to something that I 
talked about with Congresswoman Norton. One of the things that 
we want to understand is, is there is a fundamental public 
shift in its interpretation and understanding of airport noise 
and how we respond to it. And this is one of the reasons that 
we want to look at the DNL metric to see whether we have better 
tools to evaluate noise on a community.
    Mr. Capuano. When you do, please talk to some of us who 
have suffered with it, but not just the so-called experts.
    Mr. Huerta. No, it is actually a national survey that we 
are doing of communities around airports.
    Mr. Capuano. Why don't you talk to some people who lived 
under----
    Mr. Shuster. The gentleman's time has expired. I thank the 
gentleman for his questions.
    And with that, the final 3 minutes goes to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Huerta, thank you. I will be very specific. We have had 
a number of hearings where we have talked about certification 
process, specifically toward general aviation. A number of 
recommendations made in those hearings. What I want to see from 
you is specifically three major streamlinings of that process. 
I am tired of hearing about it, I am tired of getting testimony 
and nothing getting done. It needs to go in this 
reauthorization.
    I am committed to helping you with this reauthorization, 
but I am not committed if you are not going to do that. Do I 
have your assurance that you can help us with streamlining the 
certification process?
    Mr. Huerta. I think what you are referring to is the 
rewrite of part 23, which are the provisions that deal with 
general aviation, where we have worked collaboratively with 
industry. We are planning to get a notice of proposed 
rulemaking out this year on that.
    Mr. Meadows. Well, can we have your thoughts on that before 
that? Because obviously we have got a reauthorization process 
that is in the formation process now. I don't want to wait to 
have that. We need to have that. Can we get that from you?
    Mr. Huerta. Because we are in a rulemaking process, I can't 
disseminate what is in the rule, but we can----
    Mr. Meadows. Well, you are disseminating it to other 
people. No, I mean, you are just saying you can't disseminate 
it to Congress?
    Mr. Huerta. No, that is not what I am saying. What I am 
saying is I can't actually publicly put out what is in the rule 
until it comes out for a notice. But we can certainly share 
with you----
    Mr. Meadows. But you can tell us what your thinking is.
    Mr. Huerta. We can certainly tell you what the results of 
the ARC have been, working with industry and exactly where----
    Mr. Meadows. Well, we have probably heard that at hearings. 
But let me go on further. You talked about gold standards, and 
EASA is starting to take over that gold standard, if we start 
to look at internationally in terms of competition. So I want 
to ask you, what are you personally doing to promote U.S. 
products internationally?
    Mr. Huerta. The FAA cannot actually promote U.S.----
    Mr. Meadows. Well, they are, your competition is.
    Mr. Huerta. That is true. They have a specific promotional 
authority. Our promotional authority was removed from us in 
1996. And so how we focus on promoting U.S. products is 
ensuring that we can streamline the process to get the products 
to market.
    Mr. Meadows. And so can you submit to this committee three 
things where you have actually streamlined regulations, 
significant?
    Mr. Huerta. Sure.
    Mr. Meadows. I am not talking about just small, but I am 
talking about significant streamlining. Have you actually done 
that, is that your testimony here today?
    Mr. Huerta. Yes, it is, and I would be happy to share 
examples with you.
    Mr. Meadows. All right. I will yield back. Thank you, Mr. 
Chairman.
    Mr. Shuster. Thank you, Mr. Meadows.
    Again, I apologize to all the members of the committee for 
not being able to continue this.
    Mr. Huerta, thank you for being there today.
    We thought about coming back after, but it is an hour and a 
half and I want the Administrator to go back to the FAA and 
work on all these things we have been talking about.
    But we appreciate you being here. Members, I am sure, will 
be submitting questions. I would encourage you to get back to 
us as quick as you can. It would make my life easier when they 
start pounding on me on why they are not getting responses. But 
you have been very good in that in the past and we appreciate 
that.
    Again, thank you for being here.
    And thanks to all the Members for being here.
    The hearing is adjourned.
    [Whereupon, at 10:43 a.m., the subcommittee was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                    [all]
</pre></body></html>
